                                                  SENSITIVE BUT UNCLASSIFIED


                                           United States Department of State
                                        and the Broadcasting Board of Governors
                                               Office of Inspector General
Office of Inspector General


                                              Office of Inspections

                                  International Broadcasting Bureau’s
                                     Germany Transmitting Station


                                      Report Number ISP-IB-11-66, September 2011




                                                              Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a
                              copy directly from the Office of Inspector General. No secondary distribution
                              may be made, in whole or in part, outside the Department of State or the
                              Broadcasting Board of Governors, by them or by other agencies of organizations,
                              without prior authorization by the Inspector General. Public availability of the
                              document will be determined by the Inspector General under the U.S. Code, 5
                              U.S.C. 552.Improper disclosure of this report may result in criminal, civil, or
                              administrative penalties.



                                                  SENSITIVE BUT UNCLASSIFIED

                                                    i
                                       SENSITIVE BUT UNCLASSFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General




                                          ii
                              SENSTIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                               Table of Contents

Key Judgments                                           1
Context                                                 2
  Station History and Mission                           2
Executive Direction                                     3
Mission and Program Implementation                      4
Resource Management                                     7
  Human Resources                                       7
  Property Management                                   8
  Procurement                                           8
  Value-Added Tax                                       8
  Information Management                                9
Security                                               11
Recommendations                                        12
Principal Officials                                    13
Abbreviations                                          14
Appendix: Target Audiences by Language and Location    15




                                       iii
                           SENSTIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   The International Broadcasting Bureau (IBB) Germany Transmitting Station provides global
    systemwide support to other IBB transmitting stations, transmitters in third countries, and
    affiliates in third countries in terms of innovation, automation, monitoring, and intervention,
    and it does so with a talented staff that has been reduced to historically low numbers.

•   The IBB Germany Transmitting Station serves a critical role in supporting the
    implementation of part of the U.S. strategic communication strategy in Afghanistan through
    the Golden Eagle program and other transmitting initiatives.

•   The Lampertheim site has been transformed from being only a shortwave transmitting station
    to also performing many satellite system functions, including serving as the alternate satellite
    uplink for IBB Prague and IBB Transmitting Station Kuwait.

•   The Ministry of Finance does not honor requests for refunds of value-added taxes (VAT).
    This issue, identified in the last inspection, requires action by Embassy Berlin, in
    coordination with the Department of State (Department) and the Broadcasting Board of
    Governors (BBG).

•   Thanks in large measure to automation pioneered by its own staff, the IBB Germany
    Transmitting Station does as much as, or more than, the larger station of earlier years and
    with less staff, reducing the number of shifts from three to one. It achieved this efficiency
    and productivity by maintaining key human capital, especially those involved in the design,
    installation, update, and expansion of the automated systems.


      The inspection took place in Washington, DC, between April 18 and May 6, 2011, and in
Lampertheim and Biblis, Germany, between May 23 and June 6, 2011. (b) (6)




                                           1
                               SENSITIVE BUT UNCLASSFIED
                                 SENSITIVE BUT UNCLASSIFIED


Context
Station History and Mission

        With the closure of the Holzkirchen site in 2004 and the Ismaning site in 2007, the IBB
Germany Transmitting Station now has two functioning sites, one at Lampertheim and another at
Biblis. Both are in the Consulate General Frankfurt consular district. A third nonfunctioning site,
at Erching, is undeveloped land and is in the process of being sold.

        The history of the station dates back to 1946 when the Voice of America broadcast from
the Munich Relay Station, formerly used by the Nazis. The Voice of America also broadcast
under the so-called ARBIE Agreement (American Radio Bases in Europe and Radio in the
American Sector-Hof) from Ismaning. The ARBIE Agreement went into effect in May 1955 and
gave the Voice of America duty-free treatment and exemption from taxation, including VAT.
The original property at that site was eventually turned over to Bavarian State Radio, and a
newer site located directly across the road and separating the two was modernized and expanded
as an uplinking satellite gateway in the BBG satellite interconnect system. Radio Free Europe
operated sites at Holzkirken and Lampertheim, and Radio Liberty operated the site at Biblis. This
arrangement continued even after the consolidation of the two private corporation grantee
broadcasters into Radio Free Europe/Radio Liberty (RFE/RL) in 1976. As a nongovernment
entity, RFE/RL was subject to VAT. The IBB Germany Transmitting Station was created on July
1, 1995, when the Voice of America and RFE/RL were placed under the BBG and their
transmitting stations merged into one, pursuant to the U.S. International Broadcasting Act of
1994. 1 The German Government acknowledged, by exchange of diplomatic notes in 1995, that
the former RFE/RL sites changed status and were thenceforth covered by the ARBIE Agreement.
For several years thereafter, the IBB Germany Transmitting Station paid VAT and had its
submissions for VAT refunds honored. The current status of the VAT issue is covered in the
Resource Management section of this report.

       The transmissions from the original sites were targeted primarily at audiences in the
Union of Soviet Socialist Republics and its Eastern European Warsaw Pact allies. That changed
with the end of the Cold War and the independence of the former Soviet satellite nations of
Eastern Europe and the former Soviet Republics. The current audience is primarily the Middle
East, North Africa, South West Asia, and South Central Asia, but also includes Eurasia, the
Caucasus, Tibet, and East Africa (see the appendix to this report).

Station Resources

        The Lampertheim and Biblis sites are shortwave transmitting facilities with eight
shortwave transmitters each. Lampertheim has also taken on much of the equipment that had
been at Ismaning and serves a major satellite role, including as a backup satellite uplink facility
for IBB Prague. Lampertheim also can perform this backup satellite uplink role for IBB
Transmitting Station Kuwait. 2

1
 Pub. L. No. 103-236.
2
 The IBB Germany Transmitting Station Lampertheim site is the direct backup to the RFE/RL Prague uplink.
RFE/RL Prague has the capability to control the Lampertheim HPAs remotely so that no staff resources are
                                              2
                                  SENSTIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Executive Direction
        One Foreign Service officer serves as the station manager with 19 locally employed (LE)
staff. A contract supplies two people at each site for buildings and grounds maintenance. With
the downsizing of IBB Germany Transmitting Station sites and the greater use of automation, the
station has undergone a series of reductions in force. In the end, thanks in large measure to
automation, the station does as much as, or more than, the larger station did—and with less staff.
A key to this has also been in maintaining key human capital, especially those involved in the
design, installation, update, and expansion of automated systems. The transmitting site managers
at Lampertheim and Biblis and the facilities manager are all LE staff members, even though
these positions are normally held by Foreign Service officers.

        During the move of RFE/RL headquarters from its central city location in Prague, Czech
Republic, to its new location outside Prague, the IBB Germany Transmitting Station
Lampertheim site performed for several months in its backup uplink role, which included
functioning as a satellite gateway until the Prague facility came back on line. The Lampertheim
site can perform this function instantaneously, if required, and also conducts periodic tests to
maintain system readiness.

         The sole American manager not only manages the locally performed functions and
facilities but spends as much as 60 percent of his time managing the IBB AM and FM
transmitting program in Afghanistan. He also has oversight of the two hybrid transmitting
facilities in Tajikistan and Cyprus and maintains good relations with Embassies Kabul,
Dushanbe, and Nicosia. With the assistance of Embassies Kabul and Dushanbe, he has
negotiated bilateral agreements, including that for the operation of the transmitter in Khost,
Afghanistan, and the renewal of the television broadcast contract, which was completed during
the inspection. Although he does not attend Consulate General Frankfurt team meetings, he is
considered an “invisible” member of its team. The station manager did establish a small office at
Consulate General Frankfurt because of the high volume of interaction with the Frankfurt
financial management office. That office is staffed with a key administrative employee, one of
three mission critical staff members retained upon the closure of the former headquarters site at
Ismaning, who divides her time between Frankfurt and the Lampertheim site.

        Although the IBB Germany Transmitting Station has been repeatedly downsized in
recent years, employee morale remains high, and there is mutual respect between the staff and
the station manager.



required, resulting in the elimination of delays. All Lampertheim satellite systems are automatic or remote-
controlled in emergencies or after regular working hours. In addition, Lampertheim is equipped with a direct fiber
link to Washington, DC (east fiber link), so that in the event of a major problem, it can broadcast to Hot Bird. The
same would apply should the Atlantic Ocean Relay satellite be down. Lampertheim is also equipped with the
“Prague Backup System,” which provides backup for audio and video should there be a catastrophic event in
Prague. Lampertheim would be able to receive signals directly from RFE/RL Prague News Bureaus via satellite,
ISDN, or analog telephone connections. In the event that Prague loses its ability to uplink to the Atlantic Ocean
Relay satellite, Lampertheim could use the Prague Backup System as the signal source and uplink, versus Prague, to
the Atlantic Ocean Relay satellite on the Prague E1 frequency.
                                               3
                                   SENSTIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Mission and Program Implementation
        In addition to transmitting broadcasts in shortwave, the IBB Germany Transmitting
Station plays a role in supporting part of the strategic communication effort in Afghanistan;
overseeing a facility and contractor in Orzu, Tajikistan; and overseeing broadcasting through a
contractor in Cyprus. The inspection team did not visit those third country sites but interviewed
staff members who either travel regularly to those sites or interface virtually with contractors at
them. Further details on the scope of the OIG team’s direct observation and evaluation are
provided at the end of this section. The station also relays television and radio programming
from regions of interest to Washington end users via a fiber optic land link, which is much more
economical than using satellite time.

        The IBB Germany Transmitting Station is the primary implementing office of the Golden
Eagle program in Afghanistan. This program extends the reach of BBG FM programming in
Dari and Pashto inside Afghanistan. The station also manages two powerful mediumwave
transmitters for programming from the Voice of America and Radio Free Afghanistan. One
transmitter is in Kabul and the other is in Khost, near the border with Pakistan. There are
currently eight FM transmitters in Afghanistan (b) (5)
                                            and the station manager has negotiated rights with the
Ministry of Communications and Radio and Television Afghanistan to operate 14 more FM sites.
There is a plan, partially funded by BBG, to set up and operate 7 of the 14 new sites to bring the
total number to 15. (b) (5)



        The new FM transmitters are assembled, automated, and tested at the Biblis site. This
practice saves more than 50 percent of the cost that would be incurred by contracting out that
same work, for a total savings of more than $250,000. The transmitters are contained in shelters
of two FM transmitters each—one for BBG programming and another for Radio and Television
Afghanistan. A third-party contractor prepares foundations and installs the shelters at their
chosen locations. A U.S. firm provides generator packages. The station manager has found a
contractor with the contacts and reliability to handle details on the ground in Afghanistan, which
includes supplying fuel to generators (b) (5)                                             without
which that site would not be able to function. There is another local Afghan technical contractor
to intervene should Biblis be unable to resolve issues remotely through its automated systems.
The Kabul and Khost mediumwave transmitters each cover all of Afghanistan and the Federally
Administered Tribal Areas as well as other areas bordering Afghanistan in Pakistan. Pakistan
media laws prohibit foreign broadcasters from transmitting news from within Pakistan. The
Khost transmitter and some of the FM transmitters transmit programming to Pashto speakers in
those areas of Pakistan where the Taliban and Al Qaeda have been able to train and rest in a
generally permissive environment and where local opinions of the United States and its policies
are very low.

        In Tajikistan, IBB leases a transmitter, but the IBB Germany Transmitting Station has
also installed IBB transmitters at Orzu that are run by its own contractors. The signals from those
transmitters cover all of Afghanistan and Pakistan. The primary audience language for the Orzu

                                          4
                              SENSTIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

transmitter is Urdu for Pakistan. Teams from the IBB Germany Transmitting Station have made
as many as seven trips to Tajikistan to install and support that facility. The transmitter plant
manager in Lampertheim speaks Russian and has traveled regularly to the Tajikistan site or
communicated by telephone with the contractors there, where Russian is a working language in
addition to Tajik.

       In Cyprus, a French contractor operates the IBB mediumwave transmitter under the
oversight of the IBB Germany Transmitting Station. That transmitter is for the Radio Sawa
audience of the Middle East Broadcasting Networks in North Africa and in the Levant.

       The IBB Germany Transmitting Station is a key link between the Middle East
Broadcasting Networks headquarters in Springfield, Virginia, and the five Middle East News
Bureaus (Baghdad, Beirut, Cairo, Dubai, and Jerusalem) of that network. 3 Transmitting station
staff monitors those news bureaus in real time and services their interactive feeds. Reports from
those news bureaus are sent to Washington and Springfield via an optical fiber link across the
Atlantic Ocean.

        Another function of the IBB Germany Transmitting Station is automation of the global
IBB network of transmitting stations. This is a role its own staff has carved out by developing
and installing the technology that makes it possible. Employees have also assisted in converting
IBB Transmitting Station transmitters to the energy-saving amplitude modulation companding
mode. IBB’s own transmitters are vintage models for which certain spare parts are no longer
manufactured. The same applies to the antenna controller system. Station staff has addressed this
by designing a replacement antenna controller system for the IBB shortwave slewable antennas.
This antenna controller is used through the network. The original units cost $7,000 each, whereas
those designed and built by the IBB Germany Transmitting Station staff cost $250 each. The
station also provides this technology to other transmitting stations in the IBB network. In the past
2 years, teams from the station have automated or upgraded automation at IBB Transmitting
Stations Botswana, Kuwait, Philippines, Djibouti, Sao Tome, and Tinian/Saipan. They maintain
an average site availability of 99 percent at Lampertheim and Biblis.

        Consulate General Frankfurt is a major regional platform. A part of that is its courier hub,
which takes advantage of the transportation links. The IBB Germany Transmitting Station uses
this capability to ship equipment to Office of Marketing and Program Placement affiliates in a
number of countries. The station provides support to more than 90 affiliate stations throughout
the Middle East, ranging from budget management and technical support to negotiations of
bilateral agreements with the help of local U.S. embassies.

       The OIG team did not travel to Afghanistan, Pakistan, Tajikistan, Cyprus, or other third
country sites overseen or supported by the IBB Germany Transmitting Station. However, the

3
  The IBB Germany Transmitting Station’s Lampertheim site is the prime uplink for the Middle East Broadcasting
Networks service for Middle East Broadcasting Networks News Bureaus and Middle East Broadcasting Networks
Kabul. Systems are normally toggled each month so that Lampertheim uplinks Middle East Broadcasting Networks
News Bureau feeds one month and Tinang Middle East Broadcasting Networks Kabul the alternate month. Because
the Lampertheim DS3 (east fiber link) to IBB headquarters is more stable and reliable, Lampertheim often uplinks
all feeds.

                                              5
                                  SENSTIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

team did observe real-time monitoring of the Golden Eagle program, Middle East Broadcasting
Networks News Bureaus, and other transmitting stations and sites. The OIG team also witnessed
some of the station manager’s telephone calls with contacts in Afghanistan and was kept
informed of the key bargaining points of the most recent negotiation there. The inspection team
also interviewed members of staff who were responsible for, or who traveled to, third country
sites. In some instances they intervene remotely through automated systems they have installed.
They also telephone and talk to people on site in third countries to resolve other problems, in
addition to making actual trips as necessary.




                                         6
                             SENSTIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Resource Management
         The IBB Germany Transmitting Station is highly efficient. It performs complex functions
and tasks and maintains an expanded broadcasting hours workload with a fraction of the
workforce that was required years ago. For example, at the time of the last OIG inspection, there
were 3 Foreign Service officers and 71 LE staff. Automation allowed reducing the number of
shifts from three to one. Site security upgrades are ongoing and are addressed in the Security
section of this report. IBB no longer needs the land at the Erching site and is in the process of
selling that property. The station manager and his family live in U.S. Government-owned
housing on one of the Consulate General Frankfurt compounds. Although staff size is adequate,
some staff members work regular overtime for which they receive compensatory time off. To
perform automation installations or upgrades at other IBB transmitting stations, small teams
must spend weeks away from the IBB Germany Transmitting Station. Such was the case during
the inspection, when the OIG team was unable to interview employees who were performing an
automation upgrade at the IBB Philippines Transmitting Station.

Resource Profile

The IBB Germany Transmitting Station has the following resources:

   • FY 2011 estimated budget of $14 million.

   • Staff of 1 U.S. officer, 17 LE staff, and 2 personal services agreement employees.
     (A second officer position is authorized but unfilled.)

   • Assets valued at $36.4 million, including the following:
      -- 16 shortwave transmitters
      -- Antennas and receiver equipment
      -- Satellite Interconnect System
      -- Buildings
      -- Power equipment, generators, and switch gear
      -- Fuel tanks and other structures
      -- Optical fiber link
      -- Land at Erching site
      Source: Transmitting Station Manager – Data as of June 27, 2011.

Human Resources

        The closing of the IBB site in Ismaning resulted in consolidation of personnel and
functions at the IBB Germany Transmitting Station sites in Lampertheim and Biblis.
Administrative responsibilities therefore fall largely to two employees, who still manage to
deliver adequate services. Although the staff is experienced, knowledgeable, and capable, it is
hard pressed to maintain the proper separation of duties and keep up with a workload that
focuses primarily on procurement and property management. IBB relies upon International
Cooperative Administrative Support Services (ICASS) providers for other services, including
financial management, human resources, and procurement. Notwithstanding its general
                                          7
                              SENSTIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

satisfaction with ICASS service providers, station management expressed concern that the
Computer Aided Job Evaluation system may not properly grade mixed technical positions such
as those for transmitting station personnel.

Property Management

        Transmitting station staff maintains adequate control of nonexpendable property by using
the Property Inventory Processing System and applying the standard for entry into the database
as items valued at or exceeding $5,000 or for computer equipment regardless of value. Of the
608 items in the system, the annual inventory accounted for all but 2, which translates into a
shortage of 0.02 percent of the total $24,441,000 inventory. The LE staff responsible for property
management maintains a file with photographs of each item to facilitate identification,
particularly of technical equipment. The transmitting station also supplies equipment, mostly
receivers, to field affiliates on a limited basis. The responsible technician receives instructions
from IBB’s Prague Marketing and Program Placement Office and fills the orders. He uses, and
shares with the Prague office, a spreadsheet that tracks orders, shipping, destination, and
delivery, thereby providing some oversight and internal controls.

Procurement

        Procurement is a major function of the administrative section and interfaces relatively
well with ICASS financial and supply chain management functions. The office uses the full
range of procurement options, including Indefinite Delivery Indefinite Quantity contracts,
purchase orders, and purchase cards. A spot check of purchase order files yielded generally
positive results, though the OIG inspection team noted some discrepancies, notably in the area of
competition. As a result of the shortage of administrative personnel and in order to save time,
requestors are not only suggesting a vendor but also conducting the procurement competition.
This practice does not provide adequate separation of duties or internal controls.

Recommendation 1: The International Broadcasting Bureau Germany Transmitting Station
should implement a procurement process that adequately separates requestor and procurement
duties to meet internal controls requirements. (Action: IBB Germany Transmitting Station)

Value-Added Tax

        The IBB Germany Transmitting Station is still functioning under an unacceptable VAT
processing situation that OIG identified during its previous inspection in 2004. That report found
that the IBB Germany Transmitting Station was then paying more than $500,000 annually in
VAT for which it received no reimbursements, although it was entitled to receive them. 4
Embassy Berlin’s efforts to resolve the situation were unsuccessful. There is in effect a statute of
limitations on VAT refunds such that legislation would be required to honor refund requests
dating back more than 5 years. During its Washington survey, the OIG inspection brought
together the director of the IBB Office of Engineering and Technical Operations, his deputy for
Transmitting Station technical operations, other IBB staff, and a member of the BBG Office of

4
 The International Broadcasting Bureau’s Germany Transmitting Station, Report number IBO-I-04-10, September
2004, p. 11.
                                             8
                                 SENSTIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

General Counsel with the Department’s Office of Foreign Missions, and a member of the Office
of the Legal Adviser to review the status of the situation and to outline a strategy for going
forward. Both the Office of the Legal Adviser and the Office of Foreign Missions believed that
the ARBIE Agreement, rather than the Vienna Diplomatic and Consular Convention, was key
but that both the IBB Germany Transmitting Station and the relevant German ministries would
have to regularize payment of VAT and honoring of VAT refund submissions through Embassy
Berlin.

         What the OIG inspection team found in the field was in line with previous interagency
advice on the matter: evidence that VAT refund requests had not been submitted since last
refused in 2006 by the Ministry of Finance, notwithstanding a pro-embassy position by the
Ministry of Foreign Affairs; and partially successful attempts to avoid paying VAT to vendors in
the first instance. This last tactic put pressure on the compliant vendors from auditing tax
authorities, which the transmitting station then settled with in order to maintain relationships
with suppliers. In FY 2009, for example, $432,996 was obligated for VAT, of which $248,031
was paid to vendors who would not recognize the ARBIE Agreement. Part of the balance was
held in reserve to respond to future claims from vendors audited by German tax authorities who
then petition the station for back VAT payments that they did not collect at the time a good or
service was provided. Between FYs 2006 and 2010, $2,369,989 was obligated for VAT, of
which $1,512,728 was paid out but not refunded. The total VAT that has been set aside in that
period for possible claims is $852,145.

Recommendation 2: Embassy Berlin, in coordination with the Office of Foreign Missions, the
International Broadcasting Bureau, and the International Broadcasting Bureau Germany
Transmitting Station should demarche the Foreign Ministry and Ministry of Finance to get
recognition of duty and tax exemptions already granted by previous agreements and seek
clarification of the procedure for successful submission of requests for the refund of value-added
taxes paid. (Action: Embassy Berlin, in coordination with OFM, IBB, and IBB Germany
Transmitting Station)

Information Management

       The IBB Germany Transmitting Station has two distinctly separate information
technology (IT) operations supporting its transmission automation and administrative functions.
The scope of this OIG inspection is limited to the latter.

        The administrative IT operation is adequate, but it needs management’s attention in the
areas of standard systems administration procedures, standard systems configuration, and
systems staff training. The infrastructure supporting the administrative network is located at the
Lampertheim and Biblis sites. The network is composed of routers, switches, and servers for
email, files, and applications. One full-time LE systems administrator manages the network. The
administrator receives remote support from Washington when needed but handles the day-to-day
systems maintenance duties, such as account creation, systems backup, and log reviews. The
Washington IT staff conducts remote network monitoring, patch management, and configuration
updates.


                                          9
                              SENSTIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The OIG inspection team noted that the default systems administrator account was being
used to administer the system; a generic account was used to allow guests access to the network;
hardware and software configurations were not adequately tracked; the permissions restriction on
shared folders was not consistently applied; and system logs were not reviewed daily. These
practices create vulnerabilities and compromise the confidentiality, integrity, and availability of
the network. For example, using the default systems administrator account for day-to-day
systems management allows for misuse of the account, and it weakens management control in
terms of accountability. Also, not restricting the folders permissions on a need-to-know basis
affects information confidentiality. If systems logs are not reviewed frequently, potential systems
issues will not be addressed in a timely fashion. Once the OIG inspection team highlighted these
issues, the LE systems administrator immediately took some remediation actions.

Recommendation 3: The International Broadcasting Bureau Germany Transmitting Station
should develop and implement standard operating procedures for administering, configuring, and
maintaining the station’s administrative network. (Action: IBB Germany Transmitting Station)

       The LE staff has not received formal training in areas of information security and
network administration. Further, there are no standard systems administrations procedures and
systems configurations guidelines for the staff to follow. Standardized and consistent systems
management is vital for business continuity and information security. To accomplish these, staff
members must be adequately trained for their assigned duties. Additionally, systems
administration processes and procedures have to be established, implemented, and documented.

Recommendation 4: The International Broadcasting Bureau Germany Transmitting Station
should develop and implement an information technology training plan for locally employed
systems staff. (Action: IBB Germany Transmitting Station)




                                          10
                              SENSTIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Security
       Regional security office (RSO) Frankfurt provides security support to the IBB Germany
Transmitting Station sites at Biblis and Lampertheim. The Biblis site is undergoing several
physical security construction projects. (b) (5)




        The station manager reported that he receives timely support from RSO Frankfurt, whose
regional security officer has planned and conducted several drills at both sites. The manager has
acted on advice from RSO Frankfurt and moved the safe haven to a more appropriate location
and brought it up to applicable security standards. There are also plans to install a bathroom in
the safe haven.

       The station manager works with RSOs in third countries where the station oversees IBB
operations. The security annex to the Embassy Berlin inspection report contains relevant
information and recommendations pertaining to those operations.

       The guards do not have imminent danger notification system (IDNS) pendants. Instead,
they use cell phones, radios, and a loud speaker in the event of an emergency. There are currently
no plans to install an IDNS system.

       The fencing and lighting project for the Lampertheim site is complete. The CCTV there
provides adequate coverage to the compound. The guards at the Lampertheim site also do not
have IDNS pendants but have devised a system using radios and a loud speaker to contact
everyone during an emergency. (b) (5)



        Housing is provided at the Carl Schurz Sieldlung residential compound located
approximately 2 miles southwest of the Consulate General Frankfurt compound. The residential
compound has 392 apartments in 31 free-standing, 3-story apartment buildings. Most of the
consulate’s direct-hire personnel also reside there. The perimeter of the compound is ringed with
antivehicle bollards. Security is provided by the local guard force and is augmented by local
police. Residential security is adequate.




                                          11
                              SENSTIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Recommendations
Recommendation 1: The International Broadcasting Bureau Germany Transmitting Station
should implement a procurement process that adequately separates requestor and procurement
duties to meet internal controls requirements. (Action: IBB Germany Transmitting Station)

Recommendation 2: Embassy Berlin, in coordination with the Office of Foreign Missions, the
International Broadcasting Bureau, and the International Broadcasting Bureau Germany
Transmitting Station should demarche the Foreign Ministry and Ministry of Finance to get
recognition of duty and tax exemptions already granted by previous agreements and seek
clarification of the procedure for successful submission of requests for the refund of value-added
taxes paid. (Action: Embassy Berlin, in coordination with OFM, IBB, and IBB Germany
Transmitting Station)

Recommendation 3: The International Broadcasting Bureau Germany Transmitting Station
should develop and implement standard operating procedures for administering, configuring, and
maintaining the station’s administrative network. (Action: IBB Germany Transmitting Station)

Recommendation 4: The International Broadcasting Bureau Germany Transmitting Station
should develop and implement an information technology training plan for locally employed
systems staff. (Action: IBB Germany Transmitting Station)




                                          12
                              SENSTIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                       Name    Arrival Date
Station Manager                          Michael R. Hardegen    08/17/2007




                                  13
                      SENSTIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
BBG             Broadcasting Board of Governors
CCTV            Closed-circuit television
IBB             International Broadcasting Bureau
ICASS           International Cooperative Administrative Support Services
IDNS            Imminent danger notification system
IT              Information technology
LE              Locally employed
OIG             Office of Inspector General
RFE/RL          Radio Free Europe/Radio Liberty
RSO             Regional security office
VAT             Value-added tax




                            14
                SENSTIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Appendix: Target Audiences by Language and Location
IBB Germany Transmitting Station – Summer Broadcast Schedule
Biblis Site                Languages Broadcast         Target Area
Broadcast Customer
RFE/RL                     Azerbaijani                 Russia

                           Belarusian                  Europe

                           Kyrgyz                      Central Asia

                           Moldovan                    Europe, SE Europe

                           Russian                     Russia

                           Tajik                       Central Asia

                           Tibetan                     Tibet

                           Turkmen                     Central Asia

                           Uzbek                       Central Asia

Including Radio Farda      Persian                     Middle East

Voice of America           Albanian                    SE Europe

                           Azerbaijani                 Caucasus

                           Croatian                    SE Europe

                           Georgian                    Caucasus

                           Persian                     Middle East

                           Somali                      East Africa

                           Tibetan                     Tibet

Radio Free Asia            Tibetan                     Tibet



Source: IBB Germany Transmitting Station as of June 2011




                                               15
                                   SENSTIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED



IBB Germany Transmitting Station – Summer Broadcast Schedule
Lampertheim Site          Languages Broadcast          Target Area
Broadcast Customer
RFE/RL                    Avar, Chechen, Circassian    Caucasus

                          Belarusian                   Europe

                          Azerbaijani                  Caucasus

                          Kazakh                       Central Asia

                          Russian                      Russia, Central Asia

                          Special Russian Program      Caucasus, South Asia

                          Tajik                        Central Asia

                          Tatar-Bashkir                Russia

                          Turkmen                      Central Asia

                          Uzbek                        Central Asia

Including Radio Farda     Persian                      Middle East

Voice of America          Deewa (Pashto)               Afghanistan, South Asia

                          English                      Middle East, Central
                                                       Asia

                          Georgian                     Caucasus

                          Kurdish                      Middle East

                          Persian                      Middle East

                          Somali                       East Africa

                          Tibetan                      Tibet

Radio Free Asia           N/A                          N/A



Source: IBB Germany Transmitting Station as of June 2011




                                               16
                                   SENSTIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:




             202-647-3320
             800-409-9926

         oighotline@state.gov

             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.



                          17
              SENSTIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED
